<html>
<title> - [H.A.S.C. No. 113-100] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                                   
 
                         [H.A.S.C. No. 113-100]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

          FISCAL YEAR 2015 GROUND FORCE MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 2, 2014


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                              _______________
                              
                U.S. GOVERNMENT PRINTING OFFICE
87-863                WASHINGTON : 2014                



_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>  
                                                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              MIKE McINTYRE, North Carolina
CHRISTOPHER P. GIBSON, New York      JIM COOPER, Tennessee
JON RUNYAN, New Jersey               JOHN GARAMENDI, California
PAUL COOK, California                RON BARBER, Arizona
JIM BRIDENSTINE, Oklahoma            DANIEL B. MAFFEI, New York
BRAD R. WENSTRUP, Ohio               JOAQUIN CASTRO, Texas
JACKIE WALORSKI, Indiana             TAMMY DUCKWORTH, Illinois
MAC THORNBERRY, Texas                WILLIAM L. ENYART, Illinois
WALTER B. JONES, North Carolina      PETE P. GALLEGO, Texas
ROB BISHOP, Utah                     MARC A. VEASEY, Texas
BRADLEY BYRNE, Alabama
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk
                           
                           
                           
                           C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, April 2, 2014, Fiscal Year 2015 Ground Force 
  Modernization Programs.........................................     1

Appendix:

Wednesday, April 2, 2014.........................................    21
                              ----------                              

                        WEDNESDAY, APRIL 2, 2014
          FISCAL YEAR 2015 GROUND FORCE MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Barclay LTG James O., III, USA, Deputy Chief of Staff of the 
  Army, G-8; accompanied by MG Michael E. Williamson, USA, 
  Military Deputy to the Assistant Secretary of the Army 
  (Acquisition, Logistics and Technology)........................     4
Dee, Tom, Deputy Assistant Secretary of the Navy, Expeditionary 
  Programs and Logistics Management..............................     6
Walters, LtGen Glenn M., USMC, Deputy Commandant for Programs and 
  Resources......................................................     8

                                APPENDIX

Prepared Statements:

    Barclay LTG James O., III, joint with MG Michael E. 
      Williamson.................................................    25
    Walters, LtGen Glenn M., joint with Tom Dee..................    38

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Sanchez..................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Enyart...................................................    64
    Mr. Turner...................................................    61
         
         
         
         FISCAL YEAR 2015 GROUND FORCE MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Wednesday, April 2, 2014.
    The subcommittee met, pursuant to call, at 2:18 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing of the Subcommittee on Tactical Air 
and Land Forces will come to order on ground and rotorcraft 
force modernization programs.
    The subcommittee meets to receive testimony on the Army and 
Marine Corps modernization requests for fiscal year 2015.
    I want to welcome our witnesses: Lieutenant General James 
Barclay, Deputy Chief of Staff of the Army, G-8; Major General 
Michael Williamson, Military Deputy to the Assistant Secretary 
of the Army (Acquisition, Logistics and Technology); Mr. Tom 
Dee, Deputy Assistant Secretary of the Navy, Expeditionary 
Programs and Logistic Management; and Lieutenant General Glenn 
Walters, United States Marine Corps, Deputy Commandant for 
Programs and Resources.
    General Barclay, it is nice to see you again.
    General Williamson, congratulations on your new position. I 
understand you will be pinning on your third star in just a 
couple of days.
    Thank you all for your service, and we look forward to your 
testimony.
    Today, we will cover a broad portfolio of modernization 
programs, to include ground combat systems, tactical vehicles, 
rotorcraft, and individual gear such as body armor.
    Based on this current fiscal environment, the military 
services are having to accept greater risk in modernization 
programs in the near term. That is the new fiscal reality. 
Programs that were top priorities a year ago are now being 
terminated or delayed, and modernization portfolios are being 
significantly restructured.
    This hearing will provide an opportunity for our witnesses 
to inform us of the many challenges they are facing in 
acquisition and industrial base management.
    We all know that when the military goes into harm's way 
that they fight in a joint environment. In other words, the 
full power of all the services come together in order to 
accomplish our national security objectives.
    What is less understood, especially outside the 
jurisdictions of the defense committees, is how the services 
depend on each other from an industrial base perspective, 
especially for ground, rotorcraft, and individual equipment 
platforms such as body armor.
    For example, decisions that the Army makes about Abrams 
tanks or Stryker combat vehicles could affect the Marine Corps 
ACV [Amphibious Combat Vehicle] program. Decisions the Navy 
makes about Black Hawk helicopters could affect how the Army is 
procuring helicopters. All the military services are dependent 
upon the same body-armor and tactical-wheeled-vehicle 
industrial bases.
    The point I am making is that certainly Congress takes 
criticism for the perceived parochial support of one platform 
over another, but the reality is, although we certainly support 
American jobs in our districts, the bigger picture of concern 
and oversight isn't about the survival of one platform versus 
another; it is about, what capabilities does an Army Brigade 
Combat Team or Marine Expeditionary Brigade need in order to 
meet the needs of our commandant commanders so that they can 
meet our national security requirements?
    It is within that context, once we understand the threats 
and required capabilities, that we then must understand what 
industrial base capability is needed now and in the future in 
order to provide the right capability to our military at the 
right time.
    I want to highlight this point about our defense industrial 
base because I believe there is a general misunderstanding 
outside of those who serve our defense committees. This 
industrial base cannot be turned on and off like a light 
switch. And it is the purview of this committee and our 
subcommittee's responsibilities to look into the industrial 
base and find ways that we need to preserve the industrial base 
for the service of all of our service branches.
    We all understand that sequestration is still the law, but 
my concern is that if we don't like what is reflected in this 
year's budget request, we are certainly going to be facing even 
more difficulty in the upcoming year. This is part of our 
challenge and part of our discussion today and the questions 
that we will be having of this panel.
    I want to thank each of you for being here and for your 
expertise as we look to the issues of not only what do each of 
the service branches need, what is the industrial base that 
supports them, and what is the interconnectivity of that 
industrial base and how it needs to be preserved.
    With that, I turn to Ms. Sanchez for her remarks.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, everybody, for being here today.
    Today's hearing, of course, will cover our Army and Marine 
Corps ground system modernization programs. And this is a broad 
range of topics, covering everything from individual equipment 
such as body armor, Abrams tanks, Stryker vehicles.
    However, in looking at the fiscal year 2015 budget, I do 
see some general trends, many of them which are troubling to 
me.
    First, it is clear that the modernization of the Army and 
the Marine Corps ground equipment is under serious budget 
pressure. And it looks to me as if these accounts are becoming 
the bill payer for both services' overall budget shortfalls.
    With only a few exceptions, almost every major program in 
this area has been scaled back, delayed, or terminated, in 
large part, I believe, because of a lack of funding. For 
example, the Army is terminating the Ground Combat Vehicle 
program, delaying its high-priority tactical network programs, 
dramatically scaling back wheeled vehicle upgrades, and slowing 
down production of Apache attack helicopters.
    The Marines: Purchases of new Joint Light Tactical Vehicles 
[JLTV] are delayed. The Amphibious Combat Vehicle program is 
being scaled back. And I don't see a lot of new investment in 
most areas.
    And the second trend that I see is both services' ability 
to actually field new systems through the normal acquisition 
process. In the area of large-scale acquisition, Category I 
programs, we continue to start things with a big fanfare, and 
then we end up terminating because of cost growth, because of 
changing priorities, because of shifting service requirements.
    And, in addition, constantly changing senior service 
leadership priorities appear to be making it very difficult for 
the respective service acquisition officials to keep programs 
funded in the budget long enough to actually see these new 
capabilities in the field. As a result, both the Army and the 
Marine Corps keep funding new programs but don't seem to get 
those programs across the finish line.
    And you know the examples. In the Army, the termination of 
the Ground Combat Vehicle was the most recent example, where we 
spent more than a billion dollars and we have nothing to show 
for it. The Marine Corps has spent more than $3 billion over 20 
years trying to field a vehicle to replace the current 
Amphibious Assault Vehicle, but we still haven't gotten 
anything new for our Marines.
    The third trend I see which is disturbing is the needless 
duplication between the Army and Marine Corps equipment. To 
name a few, both the Marine Corps and the Army are working on 
separate multi-mission radar systems, separate precision mortar 
rounds, and separate 120-millimeter tank ammunition.
    The Army and the Marine Corps also don't use the same 
helicopters, despite obvious similarities between the missions 
that they conduct with these helicopter fleets. One example is 
the fact that the Army, the Air Force, and the Navy all use UH-
60 Black Hawk helicopters of various models, but the Marine 
Corps continues to request hundreds of millions for upgrades to 
its aging fleet of
H-1 helicopters.
    And, in some cases, I am sure that duplication or 
differences in equipment are appropriate and necessary, but I 
think that there may be a way in which, if we are really 
looking for moneys, we should work more closely together on 
that.
    I don't want to end on a sour note, because I am certainly 
a pretty big optimist, so I will just say that there are some 
areas where I have seen success.
    Body armor, as you know, has been a big priority in looking 
at and being on this committee. So in the area of body armor 
and protective equipment, both the Army and the Marine Corps 
now have well-established research and development efforts and 
a healthy inventory of high-quality equipment. But I remain 
concerned of the ability for the services to maintain those 
investments in protective equipment.
    Both services have also done a good job while keeping the 
Joint Light Tactical Vehicle program on track. It is a model of 
how competition and stable requirements and thorough testing 
can lead to successful acquisition programs.
    So, you know, I know I am going to have some questions 
because these trends, for me, are a little alarming, but I look 
forward to today's hearing.
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you.
    We will turn to General Barclay, who will then be followed 
by Mr. Dee and General Walters.
    General Barclay.

  STATEMENT OF LTG JAMES O. BARCLAY III, USA, DEPUTY CHIEF OF 
     STAFF OF THE ARMY, G-8; ACCOMPANIED BY MG MICHAEL E. 
WILLIAMSON, USA, MILITARY DEPUTY TO THE ASSISTANT SECRETARY OF 
        THE ARMY (ACQUISITION, LOGISTICS AND TECHNOLOGY)

    General Barclay. Sir, Chairman Turner, Congresswoman 
Sanchez, distinguished members of the subcommittee, I would 
like to thank you for the opportunity to discuss the Army's 
fiscal year 2015 President's budget request as it pertains to 
the Army modernization program.
    On behalf of our Secretary, the Honorable John McHugh, and 
our Chief of Staff, General Ray Odierno, Major General 
Williamson and myself look forward to discussing the Army's 
fiscal year 2015 modernization budget.
    Over the past 3 years, the Army has absorbed several 
budgetary reductions in the midst of conducting operations 
overseas and rebalancing the force for a wider array of 
missions called for by the President's defense strategy. And 
during this period of fiscal and strategic uncertainty, our 
goal has been to maintain the proper balance between end 
strength, readiness, and modernization across the Total Army.
    We are reducing our end strength as rapidly and as 
responsibly as possible, while at the same time doing our best 
to meet our operational requirements. Additionally, we need to 
concentrate funds on rebuilding readiness at the same time. 
However, to do this, we must accept greater risk in our 
modernization programs in the near term.
    As a result of this, the research, development, and 
acquisition investments have declined 37 percent since the 
fiscal year 2012 budget planning cycle. Historically, the 
Army's RDA [Research, Development and Acquisition] account has 
averaged about 22 percent of its obligation authority, and for 
fiscal year 2015, the RDA account is at 17 percent, or about 
$20 billion of obligation authority.
    And regardless of the austere fiscal conditions, it remains 
the Army's responsibility to ensure every soldier deployed is 
equipped to achieve decisive overmatch. And to do this, the 
Army has developed several initiatives that guide equipment 
modernization.
    We are using incremental improvements to modernize our 
critical systems, and we will build new systems only by 
exception. We are divesting older systems and niche 
capabilities to decrease the sustainment cost and generate 
additional resources that we can invest in our modernization 
and readiness posture.
    We are also procuring smaller quantities, because the Army 
cannot afford to equip and sustain the entire force with the 
most advanced equipment. And we are focusing our science and 
technology investments where we are technology makers and 
reducing the S&T where we are the technology takers.
    These guiding principles ensure the Army will maximize 
every dollar towards putting the best equipment in the hands of 
our soldiers.
    First and foremost, the soldier and the squad is the 
centerpiece of Army equipment modernization, from which we 
build outward by enabling them with the network and key 
equipment. And within this year's budget request, we seek to 
empower and unburden the soldier through funding for enhanced 
weapon capabilities, next-generation optics and night-vision 
devices, and advanced body armor and individual protection 
equipment.
    We will modernize the network to improve soldier 
decisionmaking with information and connectivity down to the 
lowest tactical level. Our priorities include the Warfighter 
Information Network-Tactical [WIN-T] systems, the family of 
network radios, and the Joint Battle Command-Platform. 
Investments in the network, however, are not untouched by 
resource constraints. And, as a result, we will delay a portion 
of our WIN-T Increment 3 and reduce investments in the tactical 
radio systems.
    We are committed to developing and fielding the Armored 
Multipurpose Vehicle to replace our obsolete M113 family of 
vehicles and augmenting our wheeled fleet through the Joint 
Light Tactical family of vehicles, the JLTV.
    We also have the Paladin Integrated Management remaining a 
significant priority. And we will continue funding a third 
brigade set of double-V hull Strykers while supporting 
incremental upgrades to existing double-V hull power and 
mobility.
    A new infantry fighting vehicle remains a key requirement 
for the Army. However, due to significant fiscal constraints, 
the Department will conclude the Ground Combat Vehicle program 
upon completion of the technology demonstration phase, expected 
in June of 2014.
    Instead, the Army will now focus its efforts on refining 
concepts, requirements, and key technologies in support of a 
future infantry fighting vehicle. This will include investment 
in vehicle components, subsystem prototypes, and technology 
demonstrators. In the distant future, we anticipate initiating 
a new combat vehicle program informed by these efforts as 
resources become available.
    The Army will also restructure aviation formations to 
achieve a leaner, more efficient and capable force that 
balances operational capability and flexibility across the 
Total Army.
    The Army National Guard will transfer all AH-64 Apache 
helicopters to the Active Army, where they will be teamed with 
unmanned systems for armed reconnaissance and continued 
traditional attack role.
    The Active Army will transfer 111 UH-60 Black Hawk 
helicopters to the Army National Guard, which will 
significantly improve its capabilities for support of civil 
authorities, homeland defense, and disaster response.
    The UH-72 Lakota will replace the TH-67 training helicopter 
fleet. We will divest almost 900 legacy helicopters, including 
the entire Kiowa Warrior and TH-67 training helicopter fleets.
    The Active Army's overall helicopter fleet will decline by 
23 percent, almost 700 helicopters, while the Army National 
Guard's fleet will decline by 8 percent. The resulting Active 
and Reserve Component force mix will result in better and more 
capable formations which are able to respond to contingencies 
at home and abroad.
    And, in closing, we are adjusting to those resources that 
have been cut, which means we must accept greater risk in our 
Army modernization. The Army's ability to modernize equipment 
relies on sufficient, consistent funding. While the Bipartisan 
Budget Act of 2013 provided greater budget certainty for fiscal 
year 2014 and 2015, reductions in the modernization accounts 
continue to challenge the Army.
    And the forecast in the future beyond 2015 is questionable. 
Without Congress' intervention, sequestration-level budget caps 
will return in fiscal year 2016 and impose greater risk on Army 
equipment modernization, leaving our soldiers less prepared in 
an unpredictable world.
    Mr. Chairman, members of the subcommittee, again, thank you 
for your steadfast and generous support of our outstanding men 
and women in the United States Army and the Army civilians and 
their families, and we look forward to your questions today.
    Thank you.
    [The joint prepared statement of General Barclay and 
General Williamson can be found in the Appendix on page 25.]
    Mr. Turner. General, thank you for your very clear 
statement. Those are very particular words that I think charge 
us.
    We are going to go to Mr. Dee and then come back to General 
Walters.

 STATEMENT OF TOM DEE, DEPUTY ASSISTANT SECRETARY OF THE NAVY, 
        EXPEDITIONARY PROGRAMS AND LOGISTICS MANAGEMENT

    Mr. Dee. Chairman Turner, Ranking Member Sanchez, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to address the Marine 
Corps ground force modernization and the acquisition programs 
that support the future capabilities of our Marines.
    Lieutenant General Walters and I have submitted a joint 
statement for the record, so, with your permission, I will be 
very brief in my opening remarks.
    As you have pointed out, the fiscal environment resulting 
from the BCA [Budget Control Act], although mitigated somewhat 
in the near term by the Bipartisan Budget Act, has presented us 
with challenges as we plan for and execute the modernization of 
our ground force.
    Given the Marine Corps role as America's expeditionary 
force in readiness, we necessarily place a priority on current 
readiness and crisis response. Nevertheless, our capability-
development community and our programmers, led by General 
Walters, diligently strive to appropriately balance the varied 
Marine Corps capability portfolios within the available 
resources provided to them.
    Similarly, the Marine Corps acquisition community 
diligently endeavors to squeeze every dime out of every dollar 
and deliver the very best warfighting capabilities for the 
least cost. In the service with the smallest investment 
account, there is no alternative.
    And we are proud of what our acquisition Marines have 
accomplished this past year.
    Under program leadership of the Army, the Joint Light 
Tactical Vehicle team was recognized by USD(AT&L) [Under 
Secretary of Defense for Acquisition, Technology and Logistics] 
with the David Packard Excellence in Acquisition Award for its 
success at reducing both development and procurement costs 
while also reducing schedule. JLTV is on schedule to begin 
production in 2015.
    Our G/ATOR, Ground/Air Task-Oriented Radar, program 
successfully completed its developmental testing and is 
preparing for its first LRIP [low-rate initial production] 
contract award with an IOC [initial operating capability] in 
fiscal year 2017.
    We went into full production and began fleet delivery of 
the Enhanced Combat Helmet, which delivers the best-performing 
protective capability per ounce of any helmet ever fielded.
    We completed intensive and very deep technical and cost 
analysis of our ACV program, providing Marine Corps leadership 
with the detailed and objective information that they needed to 
decide the future shape of the Marine Corps' top ground program 
priority.
    And in partnership with the Navy, our CH-53 Kilo is on 
schedule to record its first flight this year. And when it 
achieves IOC in fiscal year 2019, it will triple the external 
lift capacity of the legacy CH-53 Echo.
    So, although just a few examples of the efforts of the Navy 
and the Marine Corps acquisition force, often in partnership 
with the Army, they are representative of the diligence with 
which the acquisition force strives to achieve the very most 
with every dollar that the American taxpayer, as represented by 
this committee, entrusts to us.
    So thank you for this opportunity to appear today, and I 
look forward to your questions.
    [The joint prepared statement of Mr. Dee and General 
Walters can be found in the Appendix on page 38.]
    Mr. Turner. Thank you.
    General Walters.

 STATEMENT OF LTGEN GLENN M. WALTERS, USMC, DEPUTY COMMANDANT 
                   FOR PROGRAMS AND RESOURCES

    General Walters. Chairman Turner, Ranking Member Sanchez, 
distinguished members, it is my pleasure to speak to you today 
regarding the Marine Corps' modernization efforts.
    Throughout our 238-year history, the Marine Corp has 
answered our Nation's call to be the most ready when the Nation 
is least ready. Today, we operate freely throughout the world, 
responding to the wide spectrum of threats, doing so from the 
sea, oftentimes in austere environments.
    Our ability to deploy at a moment's notice is supported by 
our investment in modernization--modernized equipment. We see 
this not just as buying new equipment but as an investment in 
our Marines, our most important resource. When our Marines have 
the best, most modern equipment, they can meet every mission we 
give to them. Through the generosity of Congress, much of what 
the Marines deploy with today is the best and most modern 
equipment.
    Over the past decade of combat, the cost to equip a Marine 
has increased by almost six times, but we are providing Marines 
with better equipment and more of it. In 2000, the basic set of 
equipment we sent Marines who deployed included 14 items 
totaling about $2,400 in today's dollars. Today, Marines deploy 
with 45 items that cost about $13,700.
    We have given the Marines more capability to operate, a 
radio set, an upgraded first aid kid, improved body armor, 
cold-weather gear, and the list goes on and on.
    We also recognize the importance of mobility through better 
performance and lighter weight for individual equipment. As we 
better equipped our Marines over the past decade, we have 
become mindful to find the right balance between performance, 
weight, and affordability. We have worked hand-in-hand with the 
Army to find the best solution, leveraging each other's 
research and development efforts on individual protective 
equipment.
    We are currently working to field the Enhanced Combat 
Helmet, the Modular Scalable Protective System, and Improved 
Modular Tactical Vests.
    Even with a significantly modernized individual equipment 
set, many of our ground vehicles have been worn from over a 
decade of sustained conflict and have either been reset or will 
be reset over the next few years. Reset will provide a bridge 
until our major acquisition efforts begin to deliver 
significant quantities.
    As described in my prepared statement, our ground tactical 
vehicle portfolio will replace several aging platforms. Working 
with the Army, we continue to develop the Joint Light Tactical 
Vehicle, replacing the Humvee. We are also replacing our 40-
year-old Amphibious Assault Vehicles [AAVs] with the Amphibious 
Combat Vehicle, or ACV, the Marine Corps' top ground 
modernization priority.
    The program has been refined to reflect a family-of-systems 
approach that will permit amphibious operations rapidly from 
further offshore while enhancing protective mobility for the 
mission on land. We will do this in a phased approach in 
concert with a revision of our concept of operations for 
littoral maneuver.
    The first phase will leverage work done on the earlier 
Marine Personnel Carrier program. We examined nondevelopmental 
wheeled combat vehicles that can provide several capabilities 
we desire: maneuverability, protection, and limited water 
mobility.
    In parallel with the development of the first phase, we 
will mitigate near-term risk in the high-end amphibious 
operations by fully funding survivability upgrades in a limited 
number of our AAVs.
    This will allow the AAV to serve as an effective bridge 
until it is replaced by the second phase of ACV. The effort 
will continue research and development to explore capabilities 
that will better enable us to conduct extended-range littoral 
maneuver from ship to shore.
    As we have modified our ACV program, our necessity for lift 
by sea or by air for our ground vehicle portfolio remains 
constant. For our aviation programs, that means following 
through on our multiyear procurement of the MV-22 and 
continuing research and development of the CH-53K Heavy Lift 
Replacement program.
    For fiscal year 2015, we are requesting $1.53 billion to 
procure 19 MV-22s. For the entire multiyear procurement 
program, we will be purchasing 93 and saving approximately $1 
billion when compared to single-year procurements.
    For the CH-53K, we are requesting $573 million. That will 
continue EMD, engineering and manufacturing development. The 
dollars will be used to continue development test flights, 
deliver the final engineering development model aircraft, and 
start assembly of four systems demonstration test articles.
    All of these investments are critical to the Marine Corps' 
ability to maintain near-term readiness. However, full 
implementation of sequester-level caps outlined in the Budget 
Control Act will force us into a less ready force while also 
imposing severe restrictions on our modernization efforts. We 
are proud of our reputation of frugality and remain one of the 
best values for the defense dollar, but we will sacrifice our 
modernization in order to be the most ready Marine Corps for 
the Nation.
    Thank you, and I look forward to your questions.
    [The joint prepared statement of General Walters and Mr. 
Dee can be found in the Appendix on page 38.]
    Mr. Turner. Thank you, General.
    General Williamson, again, congratulations on your upcoming 
third star.
    I have a relatively long question, but it is just one. And 
I will limit myself to one, because there is a relatively long 
statement in setting up the question.
    But before I do, I would certainly want to acknowledge and 
thank again General Barclay for your comments on the budgetary 
challenges, your statement of ``during this period of fiscal 
and strategic uncertainty.''
    The fiscal uncertainty is obviously something that we 
should be tackling. Strategic uncertainty, we will never be 
able to determine what those who might threaten us do, but the 
issue of fiscal uncertainty is something that we are imposing 
upon ourselves--not just lower numbers, but the issue of 
uncertainty.
    And I appreciate your calling on Congress to give you that 
certainty and address the issue of sequestration in 2016. You 
should not be facing either a cliff coming after 2015, making 
you cut a glide path through 2015, nor should you be facing the 
threat of what everyone has testified before this entire 
committee and subcommittee as being unacceptable levels of 
funding in which our military would not be able to function and 
would significantly damage readiness.
    General Williamson, the question of uncertainty also falls 
upon our industrial base. Because, as your posture is 
uncertain, then it falls upon the industrial base for 
uncertainty. And that affects investment, that affects 
employees, people in even their personal plans.
    But I would like to take a moment to elaborate just a 
little more on one of the industrial base concerns that I have 
and that I raised during my opening statement.
    As you know, Congress has leaned forward on many critical 
national security issues that have included providing 
additional funding beyond what the Department of Defense [DOD] 
has requested for current operations. We have done so in body 
armor; up-armored Humvees; Mine-Resistant Ambush-Protected 
Vehicles, or MRAPs; and critical ISR [intelligence, 
surveillance, and reconnaissance] capabilities. All these come 
to mind in areas where Congress has leaned in and increased the 
funding above what the Department of Defense has requested that 
all came out to be critical capabilities.
    In many cases, the requirement process hadn't caught up and 
validated the need for this funding, but ultimately these 
congressional actions proved to be invaluable in addressing the 
needs of the warfighter. It is in this context that the 
committee views previous initiatives directed at the industrial 
base for the Abrams tanks, Bradley Fighting Vehicles, and 
Stryker Combat Vehicles, as well as others.
    Take the Joint Systems Manufacturing Center, JSMC, at Lima 
as an example. Now, this is not in my congressional district, 
but it is in Ohio and I do have familiarity with it.
    Last year, the Army testified that it was not their intent 
to close this facility. The Army indicated that the real issue 
was based on constrained resources, and they were going to rely 
on foreign military sales [FMS] alone to keep the facility 
viable until the next major Abrams tank upgrade came along in 
2019.
    Because of the uncertainty in foreign military sales, 
Congress took the position that foreign military sales alone 
was an unacceptable level of risk. So the Army and Congress 
were agreeing that the facility should not close, but Congress 
and the Army were in disagreement as to whether or not the 
foreign military sales alone would be sufficient to keep the 
facility open.
    To be fair, the Army has taken considerable strides in 
addressing some of the committee's concerns. For example, with 
this budget request, the Army has moved the next major series 
of upgrades to some of their major weapons systems, called 
engineering change proposals, or ECPs, from 2019 to 2017, 
which, by the way, is something that this committee recommended 
last year.
    I am still concerned about the timing of when some of the 
foreign military sales funding will be available, and we are 
taking a close look at that. But I am glad to see that the Army 
is now taking positive actions in better managing its 
industrial base. Again, the industrial base cannot be flipped 
on and off like a switch. And if we disagree as to the 
certainty or uncertainty of foreign military sales, then the 
outcome could be incredibly detrimental to our industrial base.
    However, I am still wondering if there aren't things that 
we can do or things that you could do with our help that are 
acquisition-reform-related, as opposed to just looking at the 
issue of is your number right or is our number right.
    For example, it is my understanding that when a foreign 
government wants to buy Abrams tanks using FMS funding that 
they are required to pay a usage fee, which is sent directly to 
the U.S. Treasury.
    Now, I asked why these funds can't be kept at the facility, 
with the production base support funding line versus facility 
maintenance, which then could be used for such things as 
critical safety and environmental deficiencies requirements. My 
understanding is that the Department's position is the 
government may not retain proceeds, either in the form of 
credits or cash, from the rental of government property. To 
allow the Army, in this case, to retain the process would be an 
improper augmentation of its funds and a violation of Title 31 
U.S. Code, Section 3302(b), which I am certain you are more 
familiar with than I am, which is also called the 
``miscellaneous receipts'' statute.
    I am still in the process of gaining more information about 
this subject and how it crosses the committee's jurisdiction, 
but it seems to me interesting that if we are going to look to 
foreign military sales to support our industrial base, that it 
is odd that we should also look to foreign military sales as a 
revenue source that supports other areas of the government than 
our defense posture.
    So my question gets to this: During this limited resource 
environment, how can we find more efficient ways to utilize the 
commercial sector, the depots, and government-owned, 
contractor-operated facilities such as the Joint Systems 
Manufacturing Center so we can try to avoid these spikes and 
peaks? And they will continue to put these critical facilities 
at risk. And do you have thoughts as to what should we be doing 
in acquisition reform so that we can get beyond the lever of on 
and off or the lever between your number and our number?
    General.
    General Williamson. Mr. Chairman, thank you for the 
question.
    And so there are a couple parts to the answer, but I want 
to start with one of the comments that you made, and that is 
this notion of risk.
    So when you start to have a conversation about the 
industrial base, you have to understand really where the risks 
lie. And what has to happen at this point is that we can't 
offer a solution that just relies on FMS, as you have stated, 
but I believe there has to be a three-pronged attack on this.
    One, FMS provides us a lot of capability, and it is 
important in terms of adding that capacity, that work into our 
industrial base. So it is an answer. And I would be the first 
to tell you, having dealt with FMS, foreign military sales, 
directly for the last year, that not all FMS cases come 
through. And so I acknowledge that. And so that can't be the 
only plan.
    The second part, though, I would offer is, there are some 
efficiencies that we probably need to look at. So when I talked 
about risk earlier, the thing that we have to identify is, 
where is the risk? Is that in the skill sets, critical skill 
sets? Is that in the tooling and the special machinery that is 
used in these facilities? Is it a combination of the two? And 
so what do we have to do, what is the minimum level that we 
have to have operating at any of these facilities?
    And then, in terms of acquisition reform, one of the things 
we have to look at is, is there enough or is there too much 
specific statute, rules, police forces, where money can and 
cannot go, that adds to the overhead costs associated with 
running these facilities? But the good news, sir, is that this 
committee has asked us to look at acquisition reform, and so we 
are doing some research in that area.
    And so when you take a look at not only the research that 
has been done by the Department of Defense in their sector-by-
sector, tier-by-tier study, what we had a third party do in the 
early A.T. Kearney results that help us to understand the 
industrial base, and then a third aspect where the AMC 
Commander, the Army Materiel Commander, General Via, and my 
boss, Ms. Shyu, have started to go to each facility to start to 
get detailed understanding of what are the cost drivers, what 
is causing the overhead costs, and where are there 
opportunities.
    I think as we work along all three of those fronts--
leveraging FMS when it is available; we have done some things, 
as you have indicated, by ECPs where we have been able to 
smooth those peaks and valleys so that we can assure some level 
of work and some capacity throughout these facilities; and 
then, third, find opportunities where changes in some of our 
acquisition rules policy may allow us to reduce the overhead 
costs--I think these three things will help us in looking at 
not only the efficiency piece but also the effectivity.
    And so the combination of those things are what I believe 
will allow us to maintain these national assets.
    Mr. Turner. Thank you. I look forward to continuing this 
discussion, because I think both your insight and the financial 
circumstance we are in just require that we pursue these and 
actually find solutions that we can implement. So thank you for 
your expertise.
    General Williamson. Yes, sir.
    Mr. Turner. I will turn to my ranking member, Loretta 
Sanchez.
    Ms. Sanchez. Thank you, Chairman Turner.
    And, again, thank you, gentlemen.
    This question is about body armor and the industrial base, 
because last year we tasked the Army with a review of the 
current body armor and soldier protection equipment and the 
industrial base and the outlook for future development and 
procurement--production and procurement.
    And the committee asked for this analysis based on the end 
of a large-scale--two wars, land wars, outfitting everybody, et 
cetera. And now we are looking at bringing back some of the end 
strength--bringing down some of the end strength, et cetera, 
and body armor and what it is going to look like and how we are 
going to procure it.
    The briefing that was provided to Congress painted a mixed 
picture. On one hand, it showed that the Army has a solid plan 
to invest about $178 million in research and development over 
the next 5 years and that it is also starting a new program, 
the Soldier Protection System, to integrate new protective 
equipment. However, the briefing also pointed out that there is 
probably not enough funding in the budget for procurement of 
the new body armor to keep the two current domestic producers 
or vendors that we have producing this.
    So my question is, how much additional funding would we 
need, in your opinion, in this fiscal year 2015 to keep both of 
these vendors in production? And, in your opinion, is it good 
to have that competition going or have these two vendors going? 
And if we went down to just one vendor, will that make it more 
difficult in the future if we have to ramp up in the way that 
we needed to do for Iraq and Afghanistan?
    General Williamson. Ma'am, so I would like to start by 
saying, the answer for me is that competition is always better. 
And so, maintaining an industrial base that provides us with 
choice is obviously going to help us to get a better price.
    The challenge that I have in this case is really tied to 
the item. And so you have to look at this, kind of, from two 
lenses. The first lens is from an RDT&E [research, development, 
test and evaluation] look. So our drive is, how do you improve 
the protection level of that equipment and, at the same time, 
how do we drive the cost down and the weight down?
    So if you look from 2007 to 2014, there has been a 
significant drop in weight and increase in protection. And what 
has allowed us to do that is the investment in the research and 
development and the ability for people, organizations, 
companies, vendors to manufacture. And so we have to have both 
of those capabilities.
    But the first question that I ask to the folks who do the 
work here is, I don't understand--tell me what happens when you 
store, for instance, that body armor. And so, how quickly do 
you see deterioration? How fast do we have to recycle and 
replace? So, obviously, there are those things that are 
damaged, lost, that you have to do replacement, but is there 
some life expectancy for this material that affects its 
protection capability?
    And so, understanding all of those pieces of the set that 
we have today, the set that we are going to need in the future 
and the ability for industry to manufacture that, helps us to 
shape our engagement with the vendor community. And so I think 
my short answer is that, obviously, I would like to maintain 
that competition. The challenge, as you indicated, though, is 
the funding level associated with the procurement of additional 
sets and our ability to use those.
    We have asked the PO [Program Office] to conduct that 
study. They are starting to get some of the feedback from that. 
And I would be happy to bring that information in to you as we 
get smarter on what the industrial base looks like and the 
capacity that is required as we deal with the risk that we know 
today and expected risk.
    Ms. Sanchez. General, before we worked on this body-armor 
issue here on the committee, we had the body-armor issue of 
just our regular law enforcement folks; you know, our police 
departments and sheriffs, et cetera. And one of the things, you 
know, with respect to body armor, of course, is what kind of 
wear and tear does it take. In that case, we knew that, after 5 
years, because of sweat and conditions and everything--you 
know, in fact, we passed a grant program that gave Federal 
funds to the police departments to actually procure body armor 
for their officers.
    So I think there is a lot of--and what they had is what we 
kind of started with in the military, but we have evolved so 
much, as you know, over the last 10 years, with wraparound and 
lighter. And so I think it is definitely something that we need 
to continue to work.
    And in the time that I have been on this committee looking 
at this issue, I certainly have seen several companies go out 
of business and drop off because they could not really compete 
with respect to the weight and the deterrent factor and the 
wraparound and everything.
    So I think we have at least two really, really good 
companies now, who I think will continue to try to outperform 
each other, and I do believe that that is better for us. But 
how we keep them alive during this time where we really don't 
know if we will procure or not.
    So I go back to that question of, how much do you think in 
this budget that we are talking about would we need to take a 
look at or put in to ensure that at least these two companies 
stay on their feet to duke it out for a while? Do you have any 
estimate at all? And how long will that study that you are 
anticipating take before we will know?
    General Williamson. Ma'am, at this point, I don't have a 
good number in terms of what it would take for the industrial 
base to keep two companies going. And so what I would ask is 
that I be given the opportunity to come back and give you some 
details on what we are finding.
    And, if I could, I would also just add that your comment 
about the police force and other organizations that use vests. 
The other aspect that we have to include is how do we 
capitalize that we are not the only organization that is 
procuring these? So, in addition to the other services, when 
you start to look at police forces and security forces, is 
there a way to leverage them in terms of us using the industry 
to help us drive down cost and, in addition, keep the 
industrial base going.
    And, if possible, I would like to come back and provide 
that information.
    [The information referred to can be found in the Appendix 
on page 57.]
    Ms. Sanchez. I will look forward to your ideas on that. 
Thank you----
    General Williamson. Thank you, ma'am.
    Ms. Sanchez [continuing]. General.
    And thank you, Mr. Chairman, for the time.
    Mr. Turner. Thank you.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    The Army's artillery schoolhouse is in my State at Fort 
Sill. And I was wondering if you could comment, General Barclay 
and General Williamson, if you could comment on the Army's 
commitment to the Paladin Integrated Management [PIM] System 
and, of course, modernization, in general, of artillery systems 
in the Army.
    General Barclay. Sir, I will take the first part, and then 
I will let Michael finish up with it.
    But I will tell you that the PIM--and, as you noticed, it 
was in my opening statement, and it is also in my written 
statement, about the importance of that program to----
    Mr. Bridenstine. I did notice. Thank you.
    General Barclay. That ought to tell you that that is one of 
our critical programs, along with the JLTV, that we know that 
we have to continue moving ahead on that. It is very critical 
to the operational impact but, also, as we look down the road 
of how we integrate across the different components of the 
Army.
    So from an operational perspective in equipment 
modernization, the PIM is one of our critical programs that we 
are continuing to push in the future.
    General Williamson. So, sir, I have to start by saying, as 
an air defense artillery officer, I also know that the school 
has moved up to Oklahoma.
    And here is where I would start. And that is, the PIM 
program is critically important for us. As you can see in the 
budget, we have invested substantial dollars in not only 
supporting that program from an RDT&E position, but what you 
really see in there is that we are starting to produce those 
PIMs, and you will see 66 of those coming off the line.
    And so I am impressed with the program. It is one of the 
programs that I would admit had a rocky start, but I would tell 
you now that it is performing very well.
    Mr. Bridenstine. General, do you think it would be 
appropriate to do multiyear procurement of PIM for the purposes 
of getting it to the field sooner and at a lesser cost per 
unit?
    General Barclay. Sir, again, I think both of us will 
comment. I mean--but from a programming perspective, we have 
had great success in multiyear programs. And your support from 
Congress in allowing us to do that has allowed us to save a 
great bit of dollars.
    So far, most of those programs, as you know, have been in 
the aviation arena, on the multiyear. But in this era we are 
in, with fiscal uncertainty and reduced dollars, anything we 
can do. And if the multiyears allow us to continue 
modernization at the levels we know we need to, then I would 
say we will look at that every opportunity we get.
    General Williamson. Sir, the only thing I would add is, 
purely as an acquisition view, is that multiyear gives me a lot 
of leverage in a negotiation. And so, as you know, there are 
some rules that are applied, that we don't do multiyears unless 
it returns a significant savings. And so the opportunities to 
use those we fully support.
    But, again, what I would offer is that the challenge we 
have is understanding the funding that would be available and 
to be able to steady-state that. But just like the question on 
competition, so multiple vendors are a good thing; multiyear in 
the right negotiation is also a very good thing.
    Mr. Bridenstine. Roger that, gentlemen.
    I yield back, Mr. Chairman.
    Mr. Turner. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General Williamson, again, congratulations on your third 
star.
    I want to talk to you a little bit about the procurement 
process, especially through the use of NGREA [National Guard 
and Reserve Equipment Account] funding. Can you tell me whether 
or not there has been a review of the validity of the plan that 
General Barclay put forward to transition--to move equipment 
such as the LUH-72s and the Apaches from the Guard to the 
Active Duty when those systems are either upgraded with NGREA 
funds or purchased, as in 2008 for the 72s, with NGREA funds?
    General Barclay. Ma'am, I will address, and then I will let 
Michael do it.
    But, first of all, we are taking or moving no LUHs out of 
the National Guard. Under this Aviation Restructure Initiative, 
all of the LUHs, 72s, that the National Guard has remain in the 
National Guard. So all those special mission aircraft that they 
have added some special mission equipment using NGREA-type 
funds to do that will remain within the Guard.
    Ms. Duckworth. Okay.
    General Barclay. So all the LUHs that are going to move 
into the training are coming out of the Active Component, and 
then we are going to procure some more LUHs to finish out, 
round out that number that is needed for that. So we are not 
moving any of that.
    And on the Apaches, as you know, there are no NGREA funds 
that go. Those are all straight Army funds as we program those 
systems.
    Ms. Duckworth. As you move the--I have neither Apaches nor 
LUHs in my State, so no dogs in that hunt for me. But as you 
move the Apaches out of the combat aviation brigades, you are 
fundamentally changing the nature of those brigades so that 
they are no longer similar to Active Duty ones, which then 
means that you have now taken the attack--part of the attack 
capacity away from the National Guard's divisions. So now you 
have fundamentally affected the composition of what a division 
is in the National Guard.
    Can you talk a little bit about the decision to go that 
route? And is that something that obviously is acceptable? 
Because now it is not just about the Apaches, it is about the 
composition of an entire division.
    General Barclay. Yes, ma'am. We looked very hard at that in 
doing our analysis. And there will be active Apaches on line 
with the National Guard divisions and those combat aviation 
brigades. You and I, as Black Hawk pilots, will tell you that 
Apaches are not the only combat aircraft. Most----
    Ms. Duckworth. Yeah, I have seen videos of them hanging 
the--hanging the missiles on Black Hawks and had my fantasies, 
too, General.
    General Barclay. No, it is not just hanging missiles on 
them. It is the combat mission roles they do and those assaults 
and stuff, so----
    Ms. Duckworth. Right.
    General Barclay. So by moving those Apaches out, you know, 
it doesn't mean that we will not keep them on line. And there 
will be, again, a multi-mission combat, but, again, it will be 
active Apaches aligned to the National Guard divisions.
    And we are not changing the name; those brigades in the 
Guard continue to be combat aviation brigades. Because they 
have Chinooks that do combat missions, Black Hawks that do 
combat missions, they have Medevac, and we all know that 
Medevac go into some of the most, you know, strenuous missions 
that we have on the battlefield.
    But, yes, we did look at that. But again, it is based on 
the fiscal constraints we had to meet the overall operational 
demands of the Total Army, to best-case where we could turn to 
meet those demands. And so, with the design that we have 
presented, we think we have met that.
    Ms. Duckworth. But, I mean, ultimately, you are still 
taking the attack capacity away from those combat--from those 
aviation brigades. I mean, it is--air assault pilots, we like 
to think we are as bad--that we are as big a stud and as bad as 
the Apache guys. They may disagree with us. But when you take 
the Apaches out, you have taken away the guns, that capacity. 
So it does fundamentally change, and I think we need to be 
clear that that is what is happening.
    I am going to, with my remaining time, talk to General 
Walters, just very briefly, if you could.
    General Amos was up here a couple weeks ago and spoke about 
the Marine Corps' ground vehicle strategy, and he gave a very 
nuanced description that I thought was well thought out. And, 
you know, my understanding is that it is a mix of acquiring the 
JLTV and maintaining and recapitalizing of the MRAPs and the 
up-armed Humvees until full acquisition of the JLTV is 
completed, at which point the Humvees, I think, will be phased 
out.
    You know, I know that the JLTVs, they are a long-term 
solution, and obviously you are trying to bridge that gap with 
the up-armored--with the Humvees and MRAPs in the meantime. But 
I am concerned about a potential capabilities gap, especially 
with a legacy system like the Humvees.
    Could you update us on the Humvee sustainment and 
modernization efforts? And is it being sufficiently resourced 
in order to fill that gap in the meantime?
    You know, I am just basically concerned that you are trying 
to balance a number of different programs simultaneously as you 
are trying to work towards the JLTV.
    General Walters. No, ma'am. Thanks for the question. And 
you are right, we are trying to balance three different legs on 
the same stool.
    We are partnering with the Army on the JLTV. That is not 
going to deliver for a while. We have about 24,000 Humvees in 
our inventory right now in varying conditions. As we draw down 
and as we reduce our force, we have done the analysis to date 
that says we are going to need about--in light vehicles, we 
need about 17,000. I know these numbers don't wow the Army, but 
they are big for us. We need about 17,000 of these things.
    So we are in for about 5,500 JLTV. We are in for a Humvee 
SMI [Sustainment Modernization Initiative] to put back the 
capability on the up-armored Humvee that it used to have when 
it wasn't armored. We have about 6,800 of those. You add those 
two together, and that is about 12,000, if you will accept my 
Marine math for a moment. That is about 12,000, so we need 
about another 5,000 vehicles to get that 17,000. And those are 
going to be the legacy, you know, platforms that we will hold 
around, and those will be the first ones that roll off.
    All of this is colored by our requirement to come in in 
September of this year with a new Ground Combat Vehicle 
strategy. So that is the analysis that is going on right now. 
The numbers I just gave you are our current position.
    So as we go through this and we see that there could be 
decisions made, and what I think you are alluding to is, should 
we be buying more JLTVs and less of these or more, absolutely, 
that will be an option. And then the requirements folks will 
come in, we will get the strategy done, and then we will see if 
we can fiscally afford it.
    Thank you.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Turner. Thank you.
    General Barclay, I had the opportunity in December to 
travel to Fort Rucker, Alabama, with Congresswoman Roby. And we 
certainly recognize you as the senior aviator in the Army, and 
we know you are very familiar with the Army's aviations needs 
and Fort Rucker and, of course, the restructuring initiative.
    So, for the record, let me just go down part of what you 
had said in your opening statement about the Aviation 
Restructure Initiative. It includes divestiture of the OH-58D 
Kiowa Warrior helicopters and TH-67 helicopters, consolidation 
of all AH-64 Apache helicopters in the Active Component, as Ms. 
Duckworth was saying, as well as providing additional UH-60 
Black Hawks to the National Guard and additional LUH-72 Lakotas 
for the Active Component.
    The Army's and Office of the Secretary of Defense 
assessment is that by reducing from seven types of rotorcraft 
to three and divesting the oldest platforms while preserving 
the most capable, survivable, and modern aircraft, the Army can 
retain its ability to meet warfighting demands and any Title 32 
domestic or emergency response requirements from State 
governments.
    As currently proposed, as you indicated in your statement, 
the ARI reduces the Active Component rotary-wing by 32 percent 
and the National Guard fleet by 8 percent. So, General, my 
question to you is, is this eliminating excess capacity or 
actual capability?
    General Barclay. Well, sir, I will tell you that we really 
didn't have excess capacity, but what we could not afford was 
to sustain seven different models.
    We had an aging training fleet. We had an aging Kiowa 
Warrior fleet for the armed reconnaissance mission that we had 
tried to replace that did not produce any vendors that could 
meet those requirements. So, based on the fiscal constraints we 
were under, the only thing we could do was to consolidate and 
then take this initiative to streamline, take out older 
airframes, and get us down to those that we can afford within 
the fiscal constraints that we are under and still meet the 
mission set.
    So I think, as we looked across the board and did the 
analysis, both with Fort Rucker and we also had the National 
Guard in as we were doing analysis to look at the numbers, the 
options that we came up with, this was the best case that we 
could do within the dollar amount that we were given.
    Mr. Turner. Thank you for the clarity of that.
    General Walters, could you give us an answer with respect 
to the Marine Corps and what decisions they are making in their 
rotorcraft programs that we might need to have highlighted?
    General Walters. Yes, sir. Thanks.
    I mentioned the V-22 multiyear; it is very, very hot on our 
mind that we need to maintain that. I worry about that, because 
if we get sequestered, you know, the mechanical nature of that 
busts that, and then instead of--for example, we are asking for 
19 in fiscal year 2015, part of a multiyear. If we were 
sequestered in 2015--I know we are facing that in 2016, but if 
we were sequestered in 2015, you know, we----
    Mr. Turner. Hopefully you are not facing that in 2016.
    General Walters. Yes, sir.
    Mr. Turner. It is currently on the books, but hopefully you 
are not facing that.
    General Walters. There is an old axiom in the military, 
sir, that you plan for the worst and hope for the best. But I 
think it is an exemplar of what worries us about our rotary-
wing aircraft programs.
    We asked for 19. If we somehow got sequestered--thank God, 
we didn't. Thank you very much for doing that in 2015. But if 
we did get sequestered in 2015, then I wouldn't have enough--we 
would bust the multiyear one. And instead of the dollars we are 
putting in there buying 19 of those aircraft, we had to go to 
single-year procurement. And for the same number of dollars, I 
would have to--I could only probably buy 17, so I am losing 2. 
You do that across the 5 years, so I have lost two squadrons' 
worth of aircraft over a 5-year period.
    We are very concerned--or we are not very concerned--we are 
watching very closely our 53-Kilo program. That is the key to 
our future. That thing is going to lift everything we need to 
off the ships. And we are trying to keep our H-1 program on 
track.
    So those are our three biggies: V-22, 53-K, and the H-1.
    Mr. Turner. Thank you.
    General Williamson, the Army continues to declare that 
fielding of the network is your highest priority when it comes 
to modernization. Yet the fiscal year 2015 request for two 
major network programs is lower than prior years. These 
programs are WIN-T and HMS [Handheld, Manpack, and Small Form 
Fit] radios. And it would seem to me that lower funding means 
less systems being fielded to the warfighters.
    Can you please elaborate on this? And how long would it 
take the Army to field this network across the country?
    General.
    General Williamson. So both of those programs, obviously, 
are critical to the Army. And the challenge that we have is, 
when you start to look at that, the cost associated with both, 
it is an area where we have taken some risk, but not, I think, 
excessive risk.
    So the intent is, with those lower numbers that will go 
out, we will hit the most critical units as quickly as 
possible. We have reduced some of the capability. So, as 
General Barclay indicated, some of the things that we would 
have done in WIN-T Increment 3, which enhanced not only some of 
the bandwidth capability but the levels and the mobility 
associated with that, we have accepted some of that risk and 
combined some of that capability into the current increment.
    On the HMS Manpack--on the HMS programs, whether it is the 
vehicle radios or the manned portable radios, it will affect 
the density, if you will, of how many of those we get out to 
units.
    And so I am not going to sit here and tell you that it 
doesn't come with some risk, but we do believe that the 
approach that we have taken gets the capability out to the 
Army, if not the entire Army, faster.
    General Barclay.
    General Barclay. Well, sir, I think, you know, in our 
opening statements, we are still committed to the network, but 
the lack of funding has caused us to delay these out.
    And so, if you look at the forehand, I guess if you look at 
the HMS radio or handheld radio, I mean, we are looking at, 
probably it is going to be out to 2026. I mean, so that has 
pushed that way out. So all of those, as you said in your 
opening statement, all--everything is being moved, you know, to 
the right, and it is because of the fiscal constraints we are 
under.
    But we are not backing away from our commitment to the 
network and its overall importance. As the Chief and the 
Secretary have testified, the soldier and the squad are the 
centerpiece of all of our modernization. And the network around 
them is what will make them powerful and be able to meet those 
mission sets. So that is why we are committed to it. It is just 
the timeline based on funding.
    Mr. Turner. That is the end of our questions. I do want to 
ask if anyone has any closing remarks or any additional remarks 
that they would like to make for the record.
    Seeing none, then this hearing will be closed.
    Thank you, gentlemen.
    [Whereupon, at 3:18 p.m., the subcommittee was adjourned.]

      
=======================================================================



                            A P P E N D I X

                             April 2, 2014

=======================================================================

      
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 2, 2014

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 2, 2014

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MS. SANCHEZ

    General Williamson. The Army is committed to maintaining 
competition for combat helmets and body armor such as hard armor 
ceramic plates and ballistic vests. The Army uses a combination of 
modernization and sustainment funds to incentivize competition and 
maintain the industrial base capacity. The Army's current requirement 
for body armor and helmets has been satisfied. Further, the Army is 
experiencing a reduction in demand due to the drawdown of combat forces 
in Operation Enduring Freedom (OEF), and an associated reduction in 
Overseas Contingency Operations funding. In order to maintain 
competition and industrial base capacity, the Army must balance this 
reduction in demand, while maintaining production at the Minimum 
Sustaining Rates from multiple vendors. Due to competing priorities, 
the Army is not currently funded to maintain a minimum of two competing 
vendors for hard armor plates. This is an assumed risk, and it will 
take additional time to ramp up the industrial base to the previous 
levels of production during the height of the Operation Iraqi Freedom 
and OEF conflicts if that is needed. We are exploring various stockage 
levels to mitigate that risk.
    The Army is supporting a Secretary of Defense led study in 
accordance with Section 146 of the Fiscal Year 2014 National Defense 
Authorization Act, which in part will evaluate the U.S. personal 
protective equipment industrial base and its ability to sustain 
competition and innovation. We look forward to seeing how we can use 
the result of that study to help shape our near term strategies.
    Regarding the existing stockpile of personal protective equipment, 
the Army is conducting limited surveillance testing on body armor and 
helmets to attempt to broadly determine their lifespan. This is a 
complex issue because no single piece of body armor is subjected to the 
exact same wear and tear, and environmental conditions. We will not be 
able to establish service life from this limited testing, but the 
analysis may enable us to establish a shelf life for future body armor 
requirements. [See page 14.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 2, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Please elaborate on your enduring requirements for MRAP 
vehicles and what the long-term strategy is for incorporating these 
vehicles into the fleet.
    General Barclay. The Army has an enduring requirement for 11,133 
MRAP Family of Vehicles which includes 2,548 route clearance vehicles 
and 8,585 protected mobility vehicles. The Army also has current 
Foreign Military Sales (FMS) requests for 4,000 MRAPs, and an 
additional 5,000 vehicles are being made available to other U.S. 
Government agencies, offered through new FMS requests or under the 
Excess Defense Articles program. The 2,548 route clearance vehicles 
include the Buffalo, Husky, Medium Mine Protected Vehicle Type I 
(Panther/RG33L+) and MMPV Type II (RG31). These vehicles will be 
employed within formations designed to execute Route Clearance (RC) and 
Explosive Ordnance Disposal (EOD) missions and will be managed as a 
separate Family of Vehicles (FoV)
    The 8,585 protected mobility vehicles include the MRAP All Terrain 
Vehicle (MATV), the MaxxPro Dash and MaxxPro ambulance. These variants 
will be employed as Key Leader Vehicles across the force, in Mission 
Dependent Augmentation Sets (MDAS) stored in Army Preposition Sets for 
use in future contingencies, in select table of organization (TOE) 
units and within the training base.
    The Army carefully considered current and future requirements and 
its ability to man, equip, train and sustain MRAPs to determine which 
vehicles should be retained as the Army's enduring capability of 
protected mobility, route clearance and Explosive Ordnance Disposal 
(EOD) platforms. Beginning in 2009 and culminating in 2013, the Army 
conducted a series of three studies to determine its requirements for 
MRAP combat vehicles.
    The requirements were derived from comprehensive reviews of 
battlefield performance, Soldier and leader feedback and careful 
analysis of mission flexibility and sustainment costs. The Army 
selected the best performing and most technologically advanced 
vehicles, while divesting those that are not ``best fit'' for enduring 
requirements.
    Mr. Turner. It has been reported that the Army fielded a Modular 
Catastrophic Recovery System (MCRS) in Afghanistan. I understand this 
is a modified HEMTT recovery system. I understand that as part of the 
MRAP vehicle program, a recovery wrecker variant has been developed and 
produced. Why can't the MRAP wrecker variant be used for the MCRS 
requirement? Was there an Analysis of Alternatives that included an 
upgraded MRAP recovery vehicle?
    General Barclay. The MaxxPro Recovery Vehicle (MRV) has significant 
capability gaps in mobility and combat towing that impact its ability 
to conduct recovery operations in cross-country terrain. These gaps are 
identified in the Army Testing and Evaluation Command's Limited User 
Test Memorandum, dated June 15, 2011. The MRV is incapable of 
recovering a Stryker. Although the Original Equipment Manufacturer has 
developed solutions to these gaps, those solutions will cost 
approximately $230,000 per MRV to install; therefore the Army will 
divest MRVs following Operation Enduring Freedom. The MRV was not 
included in an Analysis of Alternatives. MRVs currently in service in 
Afghanistan will continue to support vehicle recovery and other 
missions consistent within its proven capabilities.
    The Modular Catastrophic Recovery System (MCRS), consisting of the 
M983A4 Light Equipment Transporter (LET) as the prime mover, along with 
the fifth wheel towing recovery device (FWTRD) and the tilt deck 
recovery trailer (TDRT), provides more recovery capability than the 
MRV. This is a lift-tow recovery system which couples with a companion 
trailer tilt-deck cargo bed permitting swift extraction and evacuation 
of catastrophically damaged vehicles by winching onto TDRT. The LET can 
de-couple from its trailer to permit FWTRD lift of blown-off sub-
assemblies for loading onto TDRT. As a combined system, the MCRS is 
capable of evacuating up to 35 tons of catastrophically damaged 
vehicles from the battlefield. The LET is a four-axle eight-wheel 
tactical truck that is designed to haul trailers using the fifth wheel 
coupling. It is equipped with a recovery winch with a rated capacity of 
45 tons. The FWTRD coupled to the LET provides a lift tow capability of 
70 tons. The MCRS provides the capability for flat tow, lift tow, 
winching, overturning and up righting and evacuation scenarios for all 
tactical wheeled vehicles to include the Stryker Family of Vehicles.
    Currently, 97 MCRSs have been fielded to support operations in 
Afghanistan under an Urgent Material Release to meet urgent operational 
requirements. The MCRS became a program of record on January 12, 2014. 
The Army is developing the Full Material Release (FMR) package now. An 
FMR signifies that the Army has rigorously tested and evaluated the 
item and determined it is completely safe, operationally suitable and 
logistically supportable for use by Soldiers. The target date for FMR 
is second quarter, fiscal year 2015.
    Mr. Turner. It was two years ago that the Army evaluated 
replacements for the Kiowa Warrior Scout Helicopter and decided to 
extend the lives of the existing fleet instead. Were the results of 
that evaluation considered when selecting the Apache as the new armed 
scout helicopter? Was a formal analysis of alternatives conducted?
    General Barclay. The Analysis of Alternatives conducted following 
the cancellation of the Armed Reconnaissance Helicopter program 
determined that the best solution for armed reconnaissance was a team 
of AH-64E Apache helicopters and Unmanned Aircraft Systems (UAS). The 
AH-64 and UAS Manned-Unmanned-Teaming solution was not employed at the 
time because it was unaffordable to buy and sustain additional AH-64s. 
The reduction in Aviation Force structure now allows the Army to employ 
AH-64s and Shadow UAS that the Army already owns and sustains to meet 
the Armed Aerial Scout requirement. The AH-64 with its Modernized 
Target Acquisition and Designation System teamed with unmanned 
platforms is already being employed with tremendous success across 
Afghanistan.
    Mr. Turner. What is the future of the Armed Aerial Scout mission? 
Does the Army still intend to develop a new helicopter specific to that 
role? If so, when?
    General Barclay. The Army maintains a valid requirement for the 
Armed Aerial Scout; however we currently do not have the fiscal 
resources to pursue a new procurement program at this time. The Army 
will examine the success of Manned-Unmanned Teaming between attack 
helicopters and unmanned systems and may reconsider the development of 
an aircraft in the future.
    Mr. Turner. I have concerns about the viability of the tactical 
wheeled vehicle industrial base. I'm focusing here on the medium and 
heavy truck fleet. To use the Family of Medium Tactical Vehicles as an 
example, I understand the Army has planned a two year production break 
for FMTVs. There are no funds for new production in fiscal year 2015 
and 2016, but you do have funds programmed for fiscal years 2017 and 
2018. Can you explain the reasons behind this strategy?
    General Williamson. There are no funds programmed for new 
production Family of Medium Tactical Vehicles in fiscal years 2015 and 
2016 (FY15-16). However, Overseas Contingency Operations funds have 
been requested for both fiscal years to replace vehicles destroyed by 
battle or vehicles that are beyond repair due to battle damage. The 
funds programmed for FY17-18 are procurements for Data Interchange and 
Force modernization.
    Mr. Turner. It has been reported that the Army fielded a Modular 
Catastrophic Recovery System (MCRS) in Afghanistan. I understand this 
is a modified HEMTT recovery system. I understand that as part of the 
MRAP vehicle program, a recovery wrecker variant has been developed and 
produced. Why can't the MRAP wrecker variant be used for the MCRS 
requirement? Was there an Analysis of Alternatives that included an 
upgraded MRAP recovery vehicle?
    General Williamson. The MaxxPro Recovery Vehicle (MRV) has 
significant capability gaps in mobility and combat towing that impact 
its ability to conduct recovery operations in cross-country terrain. 
These gaps are identified in the Army Testing and Evaluation Command's 
Limited User Test Memorandum, dated June 15, 2011. The MRV is incapable 
of recovering a Stryker. Although the Original Equipment Manufacturer 
has developed solutions to these gaps, those solutions will cost 
approximately $230,000 per MRV to install; therefore the Army will 
divest MRVs following Operation Enduring Freedom. The MRV was not 
included in an Analysis of Alternatives. MRVs currently in service in 
Afghanistan will continue to support vehicle recovery and other 
missions consistent within its proven capabilities.
    The Modular Catastrophic Recovery System (MCRS), consisting of the 
M983A4 Light Equipment Transporter (LET) as the prime mover, along with 
the fifth wheel towing recovery device (FWTRD) and the tilt deck 
recovery trailer (TDRT), provides more recovery capability than the 
MRV. This is a lift-tow recovery system which couples with a companion 
trailer tilt-deck cargo bed permitting swift extraction and evacuation 
of catastrophically damaged vehicles by winching onto TDRT. The LET can 
de-couple from its trailer to permit FWTRD lift of blown-off sub-
assemblies for loading onto TDRT. As a combined system, the MCRS is 
capable of evacuating up to 35 tons of catastrophically damaged 
vehicles from the battlefield. The LET is a four-axle eight-wheel 
tactical truck that is designed to haul trailers using the fifth wheel 
coupling. It is equipped with a recovery winch with a rated capacity of 
45 tons. The FWTRD coupled to the LET provides a lift tow capability of 
70 tons. The MCRS provides the capability for flat tow, lift tow, 
winching, overturning and up righting and evacuation scenarios for all 
tactical wheeled vehicles to include the Stryker Family of Vehicles.
    Currently, 97 MCRSs have been fielded to support operations in 
Afghanistan under an Urgent Material Release to meet urgent operational 
requirements. The MCRS became a program of record on January 12, 2014. 
The Army is developing the Full Material Release (FMR) package now. An 
FMR signifies that the Army has rigorously tested and evaluated the 
item and determined it is completely safe, operationally suitable and 
logistically supportable for use by Soldiers. The target date for FMR 
is second quarter, fiscal year 2015.
    Mr. Turner. Years of protracted conflict have taken their toll on 
the tactical wheeled vehicle (TWV) fleet. Thousands of TWVs returning 
from multiple theaters will require some level of recapitalization or 
replacement. When does the Army plan to complete and release an updated 
TWV acquisition strategy document?
    General Williamson. The Army's TWV Strategy will be release in the 
First Quarter of Fiscal Year 2015.
    Mr. Turner. Congress has previously urged the Defense Department to 
consider requesting multiyear contracting authority as a means to 
generate potential cost savings and sustain an efficient and cost 
effective TWV industrial base. Most recently, the Fiscal Year 2014 
National Defense Authorization Act (NDAA) requires the Defense 
Department to conduct a business case analysis (BCA) of a multiyear, 
multivehicle TWV contract to determine any potential increases in cost, 
savings, or risks that may derive from such a contract in comparison to 
standard contracting methods. If the required BCA supports a multiyear, 
multivehicle contract for TWVs, would the Army pursue such a contract 
as a means to increase cost savings while continuing to modernize its 
TWV fleet?
    General Williamson. The report you mentioned is in staffing, and we 
look forward to submitting it by the end of May 2014. If the BCA 
indicates useful savings over the lifespan of already planned 
purchases, we absolutely expect to consider multiyear procurements as 
an option for future purchases. It is likely that the Joint Light 
Tactical Vehicle will provide significant cost efficiencies by 
implementing a multiyear procurement approach. That program's strategy 
has Full Rate Production beginning in Fiscal Year 2018. We would make a 
final determination on a multiyear approach at that time.
    Mr. Turner. What are the Army plans for female specific equipment 
(to include clothing, individual equipment, and body armor) 
development? To what degree do these plans depend on sustainment 
funding and/or new program funding?
    General Williamson. The Army has numerous individual equipment and 
clothing items that have been developed or are currently in development 
to better fit female Soldiers. The development of these items relies on 
Research and Development appropriations. Various improvements to date 
include the female specific jacket and pants of the new Army Physical 
Fitness Uniform, new female sized Protective Undergarments (which are 
worn in conjunction with the Protective Outer Garment), the Army Combat 
Uniform Alternate, the Army Aircrew Uniform Alternate and Women's Flame 
Resistant Undergarments (to be worn by female aviators with the Army 
Aircrew Uniform).
    The Army has also developed and fielded body armor that provides 
female Soldiers with a better fit, allowing them to perform their 
missions more effectively. The Generation III Female Improved Outer 
Tactical Vest (FIOTV) continues to provide the same unsurpassed 
ballistic protection of existing Army body armor, while providing eight 
additional sizes in conjunction with other modifications designed to 
provide a better fit. These efforts provide female Soldiers critical 
protection and the improved ability to conduct missions in combat 
environments. Another program known as the Family of Concealable Body 
Armor consists of two vests for military law enforcement and 
corrections officers and they will have a female specific sizing chart 
and female variant vests (both types). Finally, the Army will continue 
to address female sizing and fit issues as it develops the new Soldier 
Protection System. The data used to develop the female variant vests 
(FIOTV) has been shared with our industry partners and is being 
incorporated into the Army's Soldier Protection System. The Soldier 
Protection System entered Engineering and Manufacturing Development in 
fiscal year 2013 (FY13), and is scheduled to enter into Production in 
the 3rd quarter FY15.
    Mr. Turner. I understand the Army has decided to pure fleet the 
force with M4A1 carbines. Does the Army plan to revisit the Individual 
Carbine program?
    General Williamson. The Army does not plan to revisit the 
Individual Carbine program at this time.
    Mr. Turner. Please elaborate on your enduring requirements for MRAP 
vehicles and what the long-term strategy is for incorporating these 
vehicles into the fleet.
    General Walters. The Marine Corps' enduring requirement for MRAP 
vehicles is approximately 2,500. This number of MRAPs provides the 
required capabilities and adequate capacity to meet the operational 
demands of post-OEF roles and missions. As the Marine Corps transitions 
out of Afghanistan and reconfigures and refits to meet the future 
security environment, we are conducting a detailed review of our entire 
ground combat and tactical vehicle portfolio and strategy to ensure 
that our requirements value lethality and sustainability and align with 
the protected mobility requirements of the future force.
    Mr. Turner. Years of protracted conflict have taken their toll on 
the tactical wheeled vehicle (TWV) fleet. Thousands of TWVs returning 
from multiple theaters will require some level of recapitalization or 
replacement. When does the Army plan to complete and release an updated 
TWV acquisition strategy document?
    General Walters. The Marine Corps' Ground Combat and Tactical 
Vehicle Strategy (GCTVS) provides the basis for planning, programming, 
and budgeting to provide balanced maneuver and mobility capabilities to 
the Marine Corps' Operating Forces. We remain committed to the process 
and continually assess the requirements of the force as we refine the 
platforms that will be available. The Office of the Secretary of 
Defense requested the Marine Corps update the GCTVS by September 2014.
    Mr. Turner. What are the Marine Corps plans for female specific 
equipment (to include clothing, individual equipment, and body armor) 
development?
    General Walters. The Marine Corps fields, researches and develops 
the most capable and functional individual combat and personal 
protective equipment for all Marines, regardless of sex or stature. 
However, our future body armor system, the Modular Scalable Vest (MSV) 
has incorporated female anthropomorphic data from its initiation and 
will offer sizes that fit the full range of female body types. In 
addition, the Load Distribution System (LDS) that has been incorporated 
into MSV better allows female Marines to distribute the weight across 
their hips and shoulders instead of just their shoulders like the 
current vests.
    Current hard armor technology does not exist to allow ballistic 
plates to be formed in a shape that accommodates the female form and 
still retain current ballistic capabilities without greatly increasing 
weight. Several Marine Corps units have procured the Army's Female 
Urinary Diversion Device (FUDD) for use by forward deployed female 
Marines in Afghanistan, but the capability is not registered as a 
formal requirement or program. The Marine Corps will work with the Army 
to review the use of the FUDD in both services and determine the 
feasibility and advisability of making it a programmed capability for 
Female Marines.
    Marine Corps Systems Command (MCSC) recently conducted surveys to 
better understand the sizing, fit and comfort concerns of current 
individual ballistic protection systems including torso, armor, pelvic 
protection and helmets. The survey identified some concerns regarding 
the fit, function and comfort of the currently issued Improved Modular 
Tactical Vest (IMTV) and Plate Carrier (PC). Data from the surveys is 
being referenced to enhance the sizing, fit, function and comfort of 
the IMTV and PC.
    MCSC plans additional surveys targeting female and smaller stature 
male Marines to gain greater insights on the functionality of 
individual combat and personal protective equipment to inform ongoing 
research and development efforts of current and future individual 
combat and personal protective systems.
    Mr. Turner. To what degree do these plans depend on sustainment 
funding and/or new program funding?'
    General Walters. The Marine Corps has not developed or fielded 
female specific PPE; accordingly, sustainment funding is not required. 
All future requirements would depend entirely on new program funding.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Enyart. Is it still the Army's philosophy that you train as you 
fight?
    General Barclay and General Williamson. Yes, ``train as you will 
fight'' remains a guiding principle of unit training. ``Train as you 
will fight'' means training under an expected operational environment, 
or establishing in training what the unit can expect during operations 
to include the culture of an operational environment. The purpose of 
unit training is to build and maintain ready units to conduct unified 
land operations for combatant commanders. Units build flexibility, 
integration, adaptability, depth and synchronization through the 
mastery of individual and collective tasks under the conditions of the 
anticipated operational environment.
    The Army trains to provide ready forces to combatant commanders 
worldwide. Collective training provides the full range of experiences 
needed to produce agile, adaptive leaders and Soldiers and versatile 
units. Training must be relevant, rigorous, realistic, challenging and 
properly resourced. Collective task proficiency results from developing 
tactical and technical skills through instruction, experience and 
repetitive practice.
    Mr. Enyart. What cost savings are derived from transferring the 
Apaches from the Reserve to the Active Component? What other rationale 
other than cost savings does the Army have for transferring the 
Apaches?
    General Barclay and General Williamson. The transfer of AH-64s from 
the Army National Guard (ARNG) to the Active component (AC) is one 
aspect of the Secretary of Defense-approved comprehensive Aviation 
Restructuring Initiative (ARI), which is designed to achieve a leaner, 
more efficient and capable force that balances operational capability 
and capacity across the Total Army. The low-density, high-demand AH-64 
Apaches transferring out of the ARNG will be repurposed to replace AC 
OH-58D Kiowa Warriors that are being divested. The transfer will enable 
the teaming of Apaches with unmanned aircraft systems (UAS) for armed 
reconnaissance, filling a critical capability need for an Armed Aerial 
Scout created by the elimination of the Armed Reconnaissance Helicopter 
program. In addition, consolidation of Apache airframes in the AC will 
enable the Army to better meet the operational demands of our Combatant 
Commanders due to the increased operational availability that it will 
provide due to the reduced dwell times that are required in the AC.
    Necessary savings are generated by divesting three entire fleets of 
aircraft--the OH-58A/C Kiowas; the TH-67 training helicopters and the 
OH-58D Kiowa Warriors--an overall reduction of 798 aircraft. The Fiscal 
Year 2015 President's Budget incorporated this reduction. The net 
effect of the reduction is a 23 percent decrease in aircraft to the 
Active component with only an 8 percent reduction to the ARNG. In 
addition to procurement and modernization cost savings, the Army would 
also avoid the significant operations and sustainment costs of 
retaining these aging aircraft fleets. ARI avoids approximately $12 
billion in imminent costs. If the Army were to not execute ARI, we 
would be forced to retain many of our oldest and least capable aircraft 
while divesting several hundred modernized airframes. Upgrades to the 
Kiowa Warrior would cost over $10 billion. Replacing the legacy TH-67 
training helicopter would cost another $1.5 billion. In addition, lower 
procurement rates of modernized aircraft would cost the Army 
approximately $15 billion. These costs would be unbearable for the Army 
under the current budget constraints and would risk creating a hollow 
force, with less overall capability and less investment in 
modernization.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
